         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       Key Activities in EPA’s Integrated
       Urban Air Toxics Strategy
       Remain Unimplemented

       Report No. 10-P-0154

       June 23, 2010
Report Contributors:                               Rick Beusse
                                                   Bao Chuong
                                                   Erica Hauck
                                                   Jim Hatfield
                                                   Rebecca Matichuk
                                                   Michael Young




Abbreviations

CAA             Clean Air Act
CARE            Community Action for a Renewed Environment
EPA             U.S. Environmental Protection Agency
FY              Fiscal Year
GACT            Generally Available Control Technology
GAO             U.S. Government Accountability Office
HAP             Hazardous Air Pollutant
MACT            Maximum Achievable Control Technology
NACAA           National Association of Clean Air Agencies
NATA            National-Scale Air Toxics Assessment
OAQPS           Office of Air Quality Planning and Standards
OAR             Office of Air and Radiation
OIG             Office of Inspector General
S/L/T           State, local, and tribal




Cover photo:	     Stationary and mobile sources in Chicago, Illinois.
                  (Photo courtesy of the Chicago Tribune, accompanying article
                  titled “Our Toxic Air,” September 29, 2008.)
                       U.S. Environmental Protection Agency 	                                               10-P-0154
                                                                                                         June 23, 2010
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review            Key Activities in EPA’s Integrated Urban
The public health risk from       Air Toxics Strategy Remain Unimplemented
exposure to air toxics is a
concern in many urban areas.       What We Found
Accordingly, we conducted
this evaluation to assess how     EPA has not implemented key requirements of CAA Section 112(k), including
the U.S. Environmental            developing emission standards for all area (smaller) source categories and
Protection Agency (EPA)           submitting a second report to Congress (due in 2002) identifying urban areas that
tracks progress toward the
                                  continue to experience significant public health risks from air toxics exposures. In
goals of its 1999 Integrated
Urban Air Toxics Strategy.        addition, 10 years after issuing the 1999 Integrated Urban Air Toxics Strategy, EPA
The Clean Air Act (CAA)           has still not implemented key activities outlined in the Strategy. For example, EPA
Amendments of 1990 required       has not established baseline risk data to measure progress in reducing air toxics
EPA to develop this Strategy      risks. As a result, EPA has not tracked progress in meeting the Strategy’s goals.
to reduce public health risks
from air toxics emissions in      Further, although EPA determined in 2001 that a risk-based program is necessary
urban areas.                      to meet the goals of the Strategy, EPA has not yet determined whether it has the
                                  statutory authority to require State and local agencies to implement such a
Background                        program. Many State and local agencies do not have their own risk-based
                                  programs, and about half of the States and several local agencies have laws
Air toxics are emitted from a     preventing them from implementing environmental regulations stricter than EPA’s
variety of sources, including     regulations. Without the establishment of a minimum, federally required risk-
major sources (refineries,        based program, we do not believe that all State and local agencies will implement
power plants), small stationary   programs to adequately address the health risks from urban air toxics.
sources (dry cleaners, gas
stations), and mobile sources
                                  EPA’s last risk assessment, based on 2002 data, estimated that 1 in every 28,000
(cars, trucks, construction
equipment). Excessive             people could develop cancer from air toxics exposure, and that 2 million
exposure to air toxics may        Americans live in areas with lifetime cancer risks from air toxics in excess of 1 in
result in increased risks of      10,000. Given the length of time since the Integrated Urban Air Toxics Strategy
cancer and noncancer diseases     was developed and the problems EPA has encountered in its implementation, EPA
affecting the human               should reassess and update its approach to addressing urban air toxics.
respiratory, reproductive, and
neurological systems.              What We Recommend

                                  We recommend that EPA (1) submit the required second report to Congress,
For further information,          which should include a list of urban areas that continue to experience high or
contact our Office of
                                  unacceptable levels of risk and EPA’s plan to reduce risks in those areas, as well
Congressional, Public Affairs
and Management at                 as the factors that have hindered implementation of the Strategy and EPA’s plan to
(202) 566-2391.                   address those factors; and (2) determine how it will measure progress in meeting
                                  the goals of the Strategy. EPA partially agreed with our recommendations, but did
To view the full report,          not agree to include the full list of issues in its second report to Congress, or to
click on the following link:
www.epa.gov/oig/reports/2010/
                                  inform Congress if it decides to measure progress against a baseline other than a
20100623-10-P-0154.pdf            1990 or similar baseline. EPA said it would reassess its position when submitting
                                  its corrective action plan. We consider the recommendations open and unresolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          June 23, 2010

MEMORANDUM

SUBJECT:	              Key Activities in EPA’s Integrated Urban Air Toxics Strategy
                       Remain Unimplemented
                       Report No. 10-P-0154


FROM:	                 Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Gina McCarthy
                       Assistant Administrator for Air and Radiation


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $586,976.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. However, as discussed in the report, we do not believe your
planned actions meet the full intent of the recommendations and we consider all
recommendations to be unresolved. We ask that you review our comments and reconsider your
responses. We have no objections to the further release of this report to the public. This report
will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0832
or najjum.wade@epa.gov, or Rick Beusse at (919) 541-5747 or beusse.rick@epa.gov.
Key Activities in EPA’s Integrated Urban                                                                                   10-P-0154
Air Toxics Strategy Remain Unimplemented



                                  Table of Contents 


Chapters 

   1    Introduction ........................................................................................................      1         


                Purpose .......................................................................................................    1             

                Background .................................................................................................       1             

                Prior Audit Reports ......................................................................................         5             

                Noteworthy Achievements...........................................................................                 7             

                Scope and Methodology .............................................................................                7             


   2    Key CAA-Required Air Toxics Activities Remain Unimplemented................                                                9         


                CAA Section 112 Required Urban Air Toxics Strategy................................                                 9

                Key CAA Actions Unimplemented ...............................................................                     10 

                Conclusions .................................................................................................     16             

                Recommendations ......................................................................................            16             

                Agency Comments and OIG Evaluation......................................................                          17 


   Status of Recommendations and Potential Monetary Benefits..............................                                        18     




Appendices 

   A    EPA’s Estimates of Risks from Exposure to Air Toxics.................................                                     19     


   B    Prior GAO and EPA OIG Audit Reports............................................................                           23     


   C    Agency Comments.............................................................................................              24     


   D    OIG’s Evaluation of Agency Comments...........................................................                            34     


   E    Distribution .........................................................................................................    39     





                                                              i
                                                                                                     10-P-0154 





                                           Chapter 1 

                                           Introduction

Purpose
                 Section 112(k) of the Clean Air Act (CAA) Amendments of 1990 required the
                 U.S. Environmental Protection Agency (EPA) to develop a strategy to reduce
                 public health risks in urban areas from air toxics emissions, particularly from
                 small stationary sources. EPA issued its Integrated Urban Air Toxics Strategy in
                 1999 to meet this requirement.

                 Our overall assignment objective was to evaluate the status of EPA, State, and
                 local agency efforts to control urban air toxics. Specifically, we assessed how
                 EPA tracks progress with the three goals of the Strategy, which are to:

                 •	 Attain a 75 percent reduction in the incidence of cancer attributable to
                    exposure to hazardous air pollutants (HAPs)1 emitted by large and small
                    stationary sources nationwide.

                 •	 Attain a substantial reduction in public health risks (such as birth defects and
                    reproduction effects) posed by HAP emissions from small
                    industrial/commercial sources known as area sources.

                 •	 Address disproportionate impacts of air toxics hazards across urban areas,
                    such as geographic “hot spots,” highly exposed population subgroups, and
                    predominately minority and low-income communities.

Background
                 EPA defines air toxics as those pollutants that are known or suspected to cause
                 cancer or other serious health effects or adverse environmental effects. EPA
                 regulates 187 air toxics under the CAA. Over half of these pollutants are known
                 or suspected to cause cancer. In addition, many air toxics cause noncancer effects
                 such as damage to the immune, respiratory, neurological, reproductive, and
                 developmental systems, particularly in susceptible populations such as children.
                 Individuals exposed to air toxics at sufficient concentrations and durations may
                 have an increased chance of developing cancer or experiencing other serious
                 health effects.



1
  The CAA uses the term hazardous air pollutants or HAPs. EPA also refers to HAPs as air toxics. Throughout this
report, we use the term air toxics to describe the 187 HAPs identified by the CAA.


                                                       1

                                                                                  10-P-0154 



Air toxics are emitted from a wide variety of sources, including stationary
sources, mobile sources, and natural sources like forest fires. Stationary sources
include both major and area sources. Major sources are large facilities like
petroleum refineries, factories, and power plants. Area sources are smaller
facilities and include dry cleaners, gas stations, and auto body repair shops.
Mobile sources consist of on-road sources, such as cars and trucks, as well as non-
road sources, such as construction equipment, marine vessels, and lawn and
garden equipment. Table 1-1 provides more information on the sources of air
toxics emissions.

Table 1-1: Sources of Air Toxics
       Source                    Definition                             Examples
 Stationary:

             Major    Emissions of 10 tons per year or       Utilities, refineries, steel
                      more of any one air toxic, or 25       manufacturers, chemical
                      tons per year or more of any           manufacturers
                      combination of air toxics

               Area   Emissions of less than 10 tons per     Dry cleaners, gas stations,
                      year of any one air toxic pollutant,   auto body refinishing paint
                      or less than 25 tons per year of       shops, decorative chromium
                      any combination of air toxics          electroplating operations
 Mobile:

           On-road    Emissions from motorized vehicles      Cars, buses, sport-utility
                      normally operated on public            vehicles, light- and heavy-
                      roadways                               duty trucks

        Non-road      Emissions from a diverse               Construction and agricultural
                      collection of engines, equipment,      equipment, personal
                      vehicles, and vessels operated off     watercraft, lawn and garden
                      public roads                           equipment
Source: OIG.

Air toxics emissions in urban areas can be of particular concern because of the
large number and variety of sources, the high concentration of these sources in
urban areas, and the large number of people – including sensitive subpopulations
such as children and the elderly – exposed to emissions. EPA periodically
provides quantitative estimates of cancer and noncancer risks from air toxics
through its National-Scale Air Toxics Assessments (NATAs). EPA’s latest
assessment (based on 2002 emissions data) estimated that 2 million Americans
lived in areas where the increased lifetime risk from air toxics exposure was
greater than 1 in 10,000. Appendix A describes in more detail EPA’s estimates of
cancer risk and the potential for adverse noncancer health effects from air toxics
exposure based on 2002 air toxics emissions.




                                   2

                                                                          10-P-0154 



Federal Requirements to Reduce Air Toxics Emissions and Risks

Prior to 1990, the CAA established a risk-based air toxics program under which
only a few emission standards were developed. To address the lack of progress
and the difficulty in setting standards based on risk, the CAA Amendments of
1990 established a two-phase approach for addressing air toxics emissions from
stationary sources. First, the CAA Amendments required EPA to issue
technology-based standards for certain categories, or industry groupings, of major
and area sources. In the second phase, EPA is required to implement a risk-based
program to ensure the protection of public health and the environment. These two
phases are discussed in more detail below.

       Technology-Based Phase Includes MACT and GACT Standards

       For major source categories, the CAA required EPA to establish emission
       standards that reflect the maximum degree of reductions in emissions of
       air toxics achieved by sources in that industry. These emission standards
       are commonly referred to as maximum achievable control technology
       (MACT) standards, and must reflect, at a minimum, the level of emission
       control achieved by the top 12 percent of performers in the industry. EPA
       has issued MACT standards for all of the major source categories. In
       total, EPA issued 96 MACT standards from 1993 to 2004, covering 174
       different source categories.

       The CAA allows EPA to develop standards for area sources that are less
       stringent than those for major sources. If EPA deems it appropriate, it can
       set standards for area source categories based on generally available
       control technology (GACT) rather than MACT. GACT is defined as
       “methods, practices, and techniques which are commercially available and
       appropriate for application by the sources in the category considering
       economic impacts and the technical capabilities of the firms to operate and
       maintain the emissions control systems.” As of January 2010, EPA had
       issued standards for 66 of the 70 area source categories.

       Risk-Based Phase Includes Residual Risk Rules and the Integrated
       Urban Air Toxics Strategy

       In the second phase of the air toxics program, the CAA requires EPA to
       meet certain risk-based goals for public health. Eight years after the
       technology-based MACT standards are issued for a source category, EPA
       is required to review those standards to determine whether any residual
       risk exists for that source category. If necessary, EPA must revise the
       standard to protect public health with “an ample margin of safety.” To
       provide an ample margin of safety, EPA strives to limit the risk of cancer
       for the most people to no greater than 1 in 1 million, and limit the risk to
       the most exposed individual to no greater than 1 in 10,000. Area sources


                                 3

                                                                    10-P-0154 



regulated by a GACT standard are not subject to this residual risk
requirement. As of January 2010, EPA had finalized residual risk rules for
20 of the 174 MACT source categories, and proposed rules for an
additional 9 source categories.

The risk-based phase of the federal air toxics program also includes the
Integrated Urban Air Toxics Strategy. CAA Section 112(k) requires EPA
to develop a comprehensive strategy to control emissions from area
sources in urban areas and reduce public health risks from all stationary
sources. Specifically, Section 112(k)(3)(c) requires EPA to include in its
strategy:

       . . . a schedule of specific actions to substantially reduce the public
       health risks posed by the release of hazardous air pollutants from
       area sources . . . The strategy shall achieve a reduction in the
       incidence of cancer attributable to exposure to hazardous air
       pollutants emitted by stationary sources of not less than 75 per
       centum . . .

EPA finalized the Integrated Urban Air Toxics Strategy in 1999 to meet
this requirement. Although the CAA requirement focused on stationary
sources, EPA based the Strategy on reducing the cumulative risks from all
sources of air toxics, including mobile sources.

EPA set 1990 as the base year against which to measure progress in
reducing risks in urban areas to be consistent with the 1990 CAA
Amendments, which called for reductions in ambient concentrations
below those “currently experienced.” The Strategy provided four
approaches to assess progress in meeting its goals: (1) emissions or
ambient concentration weighting; (2) comparisons between ambient
concentrations and risk-based concentrations; (3) comparisons between
estimated exposures and risk-based concentrations that may yield
quantitative estimates of risk; and (4) quantitative estimates of
carcinogenic risk for individuals and populations.

The CAA did not mandate a timeframe for achieving the Strategy’s goals.
However, the CAA called for EPA to submit two reports to Congress on
its efforts to address urban air toxics – one each in 1998 and 2002. These
reports were to specifically identify urban areas that continued to
experience high risks to public health from area source emissions.

EPA Must Also Control Air Toxics Emissions from Mobile Sources

Mobile source emissions are a significant contributor to health risks from
exposure to air toxics risks in urban areas. Accordingly, EPA’s Integrated
Urban Air Toxics Strategy describes actions mandated under CAA Section



                          4

                                                                                                      10-P-0154


                          202 to reduce air toxics emissions, including diesel particulate matter,
                          from mobile sources. EPA issued regulations in 2001 and 2007 to meet
                          the Act’s mandates.

                          The 2001 rule identified 21 specific pollutants as mobile source air toxics
                          to be evaluated further for potential emission controls. The list of mobile
                          source air toxics includes 20 air toxics identified and regulated under CAA
                          Section 112, as well as diesel exhaust.2 The 2001 rule did not set any
                          specific vehicle-based standards because EPA determined that the controls
                          in place for other existing mobile source rules represented the most
                          stringent controls available at that time.

                          In 2007, EPA issued a second mobile source air toxics rule, which set
                          standards for portable fuel containers, hydrocarbon emissions from
                          passenger vehicles, and the benzene content of gasoline. This rule was
                          expected to significantly reduce emissions of several air toxics, including
                          benzene, 1,3-butadiene, and formaldehyde.

                          EPA has issued other mobile source rules – designed to reduce emissions
                          of criteria pollutants such as nitrogen oxides and particulate matter – that
                          have also reduced air toxics, including the Tier 2 standards for light-duty
                          passenger vehicles. EPA has also issued rules designed to specifically
                          reduce diesel exhaust emissions. These rules include standards for heavy-
                          duty on-road diesel engines, non-road diesel engines, and locomotives and
                          marine vessels.

Prior Audit Reports
                 U.S. Government Accountability Office (GAO) and EPA Office of Inspector
                 General (OIG) reports identifying problems in regulating air toxics date to 1991.
                 These reports identified problems such as missed deadlines, unreliable emission
                 inventories, insufficient ambient air toxics data, and inadequate funding.
                 Appendix B lists the GAO and OIG reports that we reviewed.

                 In multiple reports, GAO reported that EPA missed statutory deadlines for air
                 toxics activities, including regulations to reduce air toxics emissions. In April
                 2000, GAO reported that EPA had met 117 statutory requirements related to air
                 toxics, but 102 of them were met late. In May 2005, GAO reported that EPA had
                 met 216 statutory requirements related to air toxics, but 195 of them were met
                 late. In its most recent report on air toxics, issued in 2006, GAO reported that a
                 large number of statutory requirements remained for EPA to meet, including (1)
                 setting 54 area source standards, (2) conducting more than 90 reviews of the

2
 Diesel exhaust is not listed among the air toxics to be regulated under CAA Section 112. However, diesel exhaust
contains several regulated air toxics and EPA has concluded it is likely to be a carcinogen. EPA listed diesel
exhaust – including diesel particulate matter – as a mobile source air toxic in the 2001 Mobile Source Air Toxics
Rule, promulgated pursuant to CAA Section 202(l).


                                                        5

                                                                           10-P-0154 



residual health risks from existing MACT standards and issuing additional
standards as necessary, and (3) reviewing and updating the list of regulated air
toxics as appropriate.

Over the years, GAO has found the air toxics program to be challenged by
funding constraints. In reports covering several funding periods ranging from
1991 to 2005, GAO found that inadequate funding for the air toxics program
contributed to EPA’s inability to meet statutory deadlines, including the issuance
of MACT standards. The most recent GAO report, issued in June 2006, reported
that EPA’s limited progress in implementing the air toxics program was in part
due to the air toxics program’s lower priority relative to other air programs (e.g.,
criteria pollutants) and related funding constraints.

A March 2004 OIG report noted that unreliable emissions inventories hindered
EPA’s ability to accurately measure the progress of its air toxics program. This
report noted that States were not required to verify their reported emission
inventories, and that changes in the methodologies for developing emission
inventories made it difficult to compare current inventories with past inventories.

In March 2005, the OIG reported on EPA’s progress in monitoring ambient
concentrations of air toxics. Ambient monitoring measures national and local air
toxics concentrations. Such monitoring is needed to detect and/or verify areas of
unhealthy air toxics concentrations and to help assess progress in reducing air
toxics-related health risks by measuring national and local trends in air toxics
concentrations. We reported that there were gaps in existing monitoring coverage
with respect to areas with high estimated cancer risks and with respect to certain
air toxics that are believed to present the largest risks to the most people. We
recommended, among other things, that EPA prioritize the award of monitoring
grants to areas estimated to have the highest public health risks from exposure to
air toxics. EPA agreed to implement this recommendation and revised its grant
selection criteria to include the degree of public health risk.

Our October 2007 report on the progress of MACT standards in reducing air
toxics emissions concluded that air toxics emissions had decreased after
implementing MACT rules, but noted that unreliable emission inventories
continued to hinder EPA’s ability to measure the program’s effectiveness. This
report repeated our earlier recommendation that EPA establish mandatory
reporting requirements for air toxics emission data. EPA agreed that establishing
air toxics emissions reporting requirements could improve the quality of
emissions inventory data. However, in September 2009, after consulting with its
Office of General Counsel, the Agency commented that it does “not believe the
CAA provides EPA with the authority to require states to collect and report HAP
emissions data as a part of the Air Emissions Reporting Requirements (AERR).”
Thus, the Agency plans to continue to rely on voluntary efforts to obtain air toxics
emissions inventory data. The recommendation remains unresolved.




                                  6

                                                                                  10-P-0154 



Noteworthy Achievements
         EPA launched the Community Action for a Renewed Environment (CARE)
         program in Fiscal Year (FY) 2005. CARE is a competitive grant program through
         which local organizations, such as nonprofits, businesses, schools, and
         governments, create broad-based partnerships to implement local solutions to
         reduce releases of toxic pollutants and minimize the public’s exposure to them.
         As of January 2010, EPA has awarded 79 CARE grants since 2005. Thirteen
         grants have been completed, one was returned, and the remaining grants are still
         active. EPA’s reported achievements for the CARE grants include the following:

            •	 All 88 public schools in St. Louis, Missouri, signed up for No Idling
               Zones, which EPA estimated will save 224,000 gallons of fuel.
            •	 Forty-nine percent of the auto body repair shops visited by the grantee in
               Tucson, Arizona, participated in a voluntary emissions reduction program,
               resulting in an estimated decrease of 2,400 to 12,200 pounds per year of
               solvent emissions.
            •	 Fifteen diesel trucks in Rochester, New York, and 120 school and
               municipal buses in Pueblo, Colorado, were retrofitted with technologies to
               reduce air toxics emissions.

Scope and Methodology

         To address our objectives, we interviewed staff and managers in EPA’s Office of
         Air Quality Planning and Standards (OAQPS), Office of Transportation and Air
         Quality, Office of Environmental Justice, and Office of the Chief Financial
         Officer; and Region 4’s Air, Pesticides, Toxics Management Division (the
         FY 2009 regional sublead for air toxics). We also interviewed staff from the
         National Association of Clean Air Agencies (NACAA).

         We reviewed relevant regulations, reports, and guidance, including Federal
         Register notices, for all promulgated and proposed area source standards; the
         2000 Report to Congress on the Integrated Urban Air Toxics Strategy; mobile
         source air toxics rules; and EPA’s Workplan for the National Air Toxics Program
         and Integrated Air Toxics State/Local/Tribal Program Structure. In addition, we
         reviewed data from the 2002 NATA and analyzed these data to determine the
         estimated percentage of emissions and cancer risk attributable to area sources.
         We also reviewed data in EPA’s Air Toxics Community Assessment and Risk
         Reduction Projects database, and information pertaining to the CARE projects,
         Sustainable Skylines projects, and Community-Scale Air Toxics Ambient
         Monitoring projects.

         We conducted our work from May 2009 to March 2010. We conducted this
         evaluation in accordance with generally accepted government auditing standards.
         Those standards require that we obtain sufficient, appropriate evidence to provide



                                          7

                                                                        10-P-0154 



a reasonable basis for our findings and conclusions based on our evaluation
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our objectives.




                                8

                                                                                     10-P-0154 





                                Chapter 2

         Key CAA-Required Air Toxics Activities 

               Remain Unimplemented 

          After 10 years, key actions called for by the CAA and outlined in EPA’s 1999
          Integrated Urban Air Toxics Strategy to address public health risk from exposure
          to air toxics remain unimplemented. EPA has not determined whether it has the
          statutory authority to require State and local agencies to implement a federal risk-
          based program, nor has EPA determined the level of resources needed to fund
          such a program. Further, a lack of reliable data has contributed to EPA’s inability
          to establish baseline risk data against which to measure progress in reducing the
          public health risk from exposure to air toxics as required by the CAA. In our
          opinion, without implementation of a national urban air toxics strategy, State,
          local agencies, and tribes will not have the necessary programs and resources to
          meet the public health goals set by Congress for the urban air toxics program. In
          2002, about half of the States and several local agencies had laws preventing them
          from implementing environmental programs that are stricter than EPA’s
          regulations. In the absence of federal risk-based requirements, these State and
          local agencies may not be able to fully address local areas of high risk. As a
          result, the public continues to be exposed to levels of air toxics that may cause
          elevated risks of cancer and other diseases. EPA’s last risk assessment, based on
          2002 data, estimated that 1 in every 28,000 people could develop cancer from air
          toxics exposure.

CAA Section 112 Required Urban Air Toxics Strategy
          Section 112(k) of the 1990 CAA Amendments required EPA to develop a
          comprehensive strategy to control emissions of air toxics from area sources in
          urban areas. The strategy was to identify not less than 30 air toxics emitted from
          areas sources that present the greatest threat to public health in the largest number
          of urban areas. Further, the strategy was to identify the source categories emitting
          these air toxics, and EPA was to ensure that sources accounting for 90 percent or
          more of the emissions for each of the air toxics were subject to emissions
          standards. The strategy was to include a schedule of specific actions to
          substantially reduce the public’s health risk from exposure to air toxics emitted by
          areas sources. Specifically, EPA was to achieve – through implementation of the
          Strategy – a 75 percent reduction in the incidence of cancer attributable to
          exposure to air toxics emitted by stationary sources. In addition, EPA was to
          provide for ambient monitoring and emissions modeling in urban areas as
          appropriate to demonstrate that the goals and objectives of the strategy were being
          met.




                                            9

                                                                                    10-P-0154 



         EPA published the Integrated Urban Air Toxics Strategy in 1999 to address the
         requirements of CAA 112(k). The Strategy is a major part of EPA’s national
         efforts to reduce air toxics emissions and risk through four key components:
         stationary and mobile source regulations, cumulative risk initiatives, risk
         assessment approaches, and education and outreach. The Strategy included plans
         for EPA to establish appropriate federal measures, through guidance, policies, and
         rulemaking, to enable State, local, and tribal (S/L/T) agencies to be full partners in
         implementing a risk-based air toxics program.

         CAA Section 112(k) also prescribed additional EPA actions to address area
         source emissions. In particular, EPA was to encourage local strategies to reduce
         area source emissions by awarding 10 percent of the funds available for grants
         under Section 112 to State and local agencies for innovative and effective
         strategies. EPA was also required to submit two reports to Congress on its actions
         to reduce public health risks from exposure to air toxics, particularly from area
         sources. The first report to Congress was required within 8 years of the
         enactment of the CAA Amendments of 1990 (i.e., by 1998), and the second report
         was to be completed within 12 years (i.e., by 2002). These reports were to
         specifically identify metro/urban areas that continue to experience high risks to
         public health posed by emissions from area sources.

Key CAA Actions Unimplemented
         EPA has neither completed key CAA requirements nor implemented key actions
         outlined in its CAA-required 1999 Strategy to reduce risk in urban areas from air
         toxics. Specific requirements of the CAA that EPA has not implemented are:

            •	 Promulgating air toxics emissions standards for all area source categories
               by November 15, 2000.
            •	 Awarding at least 10 percent of funds available under Section 112 to State
               or local agencies to support strategies to address air toxics emissions from
               area sources.
            •	 Submitting a second report to Congress on actions taken to reduce risks
               posed by urban air toxics from area sources.

         Specific actions that EPA outlined in its Strategy that it has not implemented
         include:

            •	 Establishing a minimum risk-based air toxics program for S/L/T agencies.
            •	 Measuring and tracking progress in meeting the Strategy’s goals.
            •	 Defining the term “substantial reduction” to track progress in reducing
               noncancer health impacts.




                                          10

                                                                                                       10-P-0154


                 Air Toxics Emissions Standards Still Needed for Four Area Source
                 Categories

                 EPA is 10 years behind schedule in promulgating regulations to reduce emissions
                 from area sources in urban areas. EPA was required to promulgate regulations for
                 listed area sources within 10 years of the CAA Amendments of 1990 (i.e., by
                 November 15, 2000). In 2002, EPA completed the required list of area source
                 categories. This list contained 70 area source categories representing at least 90
                 percent of the area source emissions for each of the 30 air toxics listed in the
                 Strategy. As of January 2010, EPA had promulgated 43 emission standards
                 addressing 66 of the 70 listed area source categories.3 EPA had not completed
                 standards for the remaining four area source categories.

                 In addition to issuing area source standards well after their CAA-required
                 implementation dates, many of these standards do not require any additional
                 emission reductions. NACAA has criticized the lack of required emission
                 reductions in EPA’s area source rules. In a 2008 report,4 NACAA noted that
                 some of EPA’s area source rules do not require additional controls or merely
                 codify what some State and local agencies already require. NACAA
                 recommended that EPA revisit the area source standards for air toxics and “revise
                 the most deficient ones so that they will result in real reductions in emissions and
                 the associated risks.” At least 18 of the 43 area source standards EPA has issued
                 are not expected to result in any additional reductions in air toxics emissions.
                 According to the Federal Register notices for these rules, the most common
                 reason for the lack of expected emission reductions was that the area source
                 category was already well controlled or had already reduced emissions since the
                 enactment of 1990 CAA Amendments.

                 Effective implementation and enforcement of these rules is also a concern. As
                 noted by NACAA in its December 2008 report, many State and local agencies do
                 not have sufficient resources to take delegation of the area source standards.5 In
                 its comments to EPA on specific area source rules, NACAA stated EPA should
                 provide sufficient additional funds for the area source rules to be implemented
                 properly. NACAA explained that area sources programs were not eligible for
                 Title V fees and thus would require a significant increase in resources beyond
                 what was currently provided.



3
  Some emission standards cover more than one area source category; thus, the number of standards is less than the
number of source categories.
4
  NACAA, Change is in the Air: Recommendations from the National Association of Clean Air Agencies to
President-Elect Obama’s Administration on Improving Our Nation's Clean Air Program, December 16, 2008.
5
  EPA environmental programs are generally implemented by the States, local agencies, and tribes through a formal
delegation process. In general, an S/L/T agency must demonstrate adequate legal authorities and resources to
receive delegation of federal standards. EPA helps fund the S/L/T administration of these programs through
program grants.



                                                        11

                                                                                                       10-P-0154


                 Absent delegation to States, local agencies, and tribes, EPA will be responsible
                 for implementing these standards. Based on the large number of rules that do not
                 require additional emission reductions and a lack of State resources to implement
                 these rules, we believe these rules may not sufficiently reduce air toxics emissions
                 and risks in urban areas to meet the statutory goals of the Strategy.

                 EPA Funding for Emission Reduction Strategies Below the CAA
                 Minimum

                 EPA has not met the CAA’s requirement that EPA award at least 10 percent of
                 the grant funds available under CAA Section 112 to support State or local agency
                 area-wide strategies to address air toxics emissions from area sources. According
                 to Section 112(k)(4), these funds should be awarded on a demonstration basis to
                 State and local agencies with innovative and effective strategies.

                 EPA has not received a separate appropriation for Section 112 grants or activities.
                 Rather, Congress has appropriated funds for air programs under CAA Sections
                 103 and 105, neither of which carries a 10 percent set-aside requirement for area
                 source strategies. EPA allocates funds under Section 103 and 105 grants to State
                 and local agencies for Section 112 (i.e., air toxics) activities. EPA has allocated
                 roughly $40 million a year in grant funds to State and local agencies for toxics
                 programs from FY 2005 to FY 2010.6 Thus, to meet the CAA’s 10 percent
                 requirement, about $4 million a year should be specifically awarded for projects
                 to reduce area source emissions to meet the CAA requirement. While EPA has
                 awarded grants to State and local agencies for various air toxics-related projects,
                 these grants do not meet the 10 percent requirement for innovative area source
                 reduction strategies.

                 From FY 2001 to FY 2004, the Office of Air and Radiation (OAR) provided
                 grants for the Community Assessment and Risk Reduction Initiative. This
                 initiative provided approximately $2 million to 30 projects over the course of 4
                 years. The majority of these projects provided money for pilot demonstration
                 projects designed to assist S/L/T agencies and communities in characterizing their
                 local air toxics problems, developing reduction activities to address those
                 problems, and measuring reductions as they occur. EPA discontinued the
                 initiative after 2004.

                 Starting in FY 2005, EPA has awarded grants to communities to address public
                 health risks from multiple sources, including air toxics, through the CARE
                 program. There are two levels of CARE grants. First-level projects provide up to
                 $100,000 for planning, partnership development, investigation of toxics, and
                 consensus building on the community’s toxic priorities. Second-level projects
                 provide up to $300,000 to carry out strategies to reduce the toxics identified and
                 prioritized in the first level. From FY 2005 to FY 2008, 69 grants were awarded

6
 In FY 2007, the allocation was only about $31 million because the budget for that year did not provide any funding
for the National Air Toxics Trends Network or community-scale air toxics monitoring.


                                                        12

                                                                                                10-P-0154


                under CARE. Of the 13 completed CARE grants, 4 identified area source
                emissions as a community concern and/or addressed these emissions. EPA
                provided $2 million to fund the CARE program in FY 2009, an amount equal to
                roughly 5 percent of the funding provided to State and local agency air toxics
                programs, or about half of the 10 percent required by CAA Section 112(k)(4).
                Thus, even if all of the CARE projects were focused on reducing emissions from
                area sources, the total funding would not meet the CAA-required 10 percent
                funding level.

                Second Report to Congress Has Not Been Submitted

                EPA has not submitted a second report to Congress on the actions taken under
                Section 112(k) and other parts of the CAA to reduce risks to public health posed
                by air toxics from area sources. EPA submitted the first report to Congress in
                July 2000, 2 years after the deadline specified by the CAA. The second report to
                Congress, due in 2002, was never written. These reports were to specifically
                identify urban areas that continue to experience high risks to public health posed
                by emissions from area sources; however, the first report did not include such a
                list. In the first report, EPA said it was unable to identify the urban areas that
                continued to experience high risks to public health as a result of emissions from
                area sources because it had only recently begun to implement its Strategy. EPA
                reported that it would be better able to identify those urban areas with high air
                toxics risks in the following few years as it made progress toward the goals of the
                Strategy.

                Since the first report was issued, EPA has conducted assessments to identify high-
                risk urban areas. However, EPA has not formally identified these areas for the
                purpose of establishing a baseline to track progress in meeting the goals of the
                Strategy.

                EPA Has Not Established a Risk-Based Air Toxics Program

                As of January 2010, EPA had not established a minimum risk-based air toxics
                program at the S/L/T levels. While not required by the CAA, EPA had decided
                such a program was necessary to meet the goals of its Strategy. In its September
                2001 work plan for implementing the national air toxics program, EPA set a
                milestone of 2003 for completing this action.7

                OAQPS managers and staff told us that they worked with State and local air
                representatives to develop such a program. OAR concluded that a program was
                not established in large part because Section 112 of the CAA did not give EPA
                explicit authority to require such a program. However, OAR’s conclusion has not
                been reviewed or endorsed by EPA’s counsel.


7
 EPA, OAQPS, Emission Standards Division, U.S. Environmental Protection Agency Workplan for the National
Air Toxics Program and Integrated Air Toxics State/Local/Tribal Program Structure, September 2001.


                                                    13

                                                                                                       10-P-0154


                 If EPA developed an S/L/T risk-based program, OAR would have to address the
                 amount and sources of funding for such a program. In addition, the program
                 would have to address acceptable or unacceptable levels of risks and at what level
                 S/L/T entities should take action to address cumulative risks in urban areas. As of
                 January 2010, EPA had not established any action levels for addressing cancer
                 and noncancer risks in local communities.

                 While some States and local agencies have implemented their own risk-based air
                 toxics programs independently of EPA, according to a 2002 survey by NACAA,
                 about half of the States and several local agencies8 had laws preventing them from
                 implementing environmental regulations that were stricter than EPA’s
                 regulations. In the absence of federal risk-based requirements, these States and
                 local agencies may not be able to fully address local areas of high risk. Thus,
                 without the establishment of a minimum, federally required risk-based program,
                 we do not believe that all States and local agencies will be able to implement
                 programs to adequately address the health risks from urban air toxics.

                 EPA Has Not Tracked Progress for Meeting the Strategy’s Goals

                 EPA has not tracked its progress in meeting the goals of the Strategy. EPA has
                 implemented over 100 air toxics rules9 since the 1990 CAA Amendments, and
                 data indicate that air toxics emissions have decreased accordingly. However, as
                 described in the Strategy, tracking cumulative risk from exposure to air toxics
                 would require EPA to move its performance tracking focus from emissions
                 reductions to reductions in cancer and noncancer health risks. EPA has made
                 some progress in this area, as its current performance measures for the national air
                 toxics program are based on reductions in toxicity-weighted emissions. The
                 current performance measures are an improvement over gross emissions
                 reductions measures in that they weight the reductions based on their toxicity.
                 However, this approach lacks the dispersion and exposure modeling steps of an
                 exposure assessment and therefore cannot provide quantitative estimates of risk.
                 Such quantitative estimates of risk are needed to assess whether the goals of the
                 Strategy are being met.

                 EPA planned to use a quantitative risk-based approach to assess its progress in
                 meeting the goals of the Strategy starting with the 1996 emission inventory,10
                 which would be the first year the inventory included the point-specific




8
   According to a 2002 survey conducted by NACAA (formerly STAPPA/ALAPCO), 26 States and 9 local agencies 

responded that they were either partially or totally prohibited from implementing air programs that are more 

stringent than the federal program.

9
  These rules include MACT standards and residual risk rules for major sources, as well as GACT standards for area 

sources. 

10
   EPA develops an air toxics emission inventory, known as the National Emission Inventory, every 3 years. 

Emissions data from the National Emission Inventory are input into the models used for NATA. 



                                                        14

                                                                                                         10-P-0154 



                 information needed to model ambient toxics concentrations.11 EPA has
                 conducted three quantitative assessments of national air toxics risk (i.e., NATA)
                 based on emissions data for 1996, 1999, and 2002. However, EPA has not used
                 these assessments to establish baseline risk data for measuring progress.
                 According to EPA’s NATA Website, it is not meaningful to compare the results
                 between assessments because any changes in emissions, ambient concentrations,
                 or risks may be due to either improvement in methodology or to real changes in
                 emissions. Further, EPA’s NATA Website states that the NATA results should be
                 used cautiously because the quality and uncertainties of the assessments vary
                 from location to location, as well as from pollutant to pollutant. In addition,
                 point-specific emissions data for area sources are very limited.

                 Accordingly, EPA must use models to estimate the types and numbers of area
                 sources in a given location. According to EPA staff, this type of modeling
                 estimate accounts for 95 percent of area source emissions used as input into
                 NATA. Thus, the accuracy of the area source emissions inventories is even more
                 uncertain than the major source inventories. As a result, EPA does not have a
                 process for assessing its progress in meeting the goals of the Strategy.

                 Key Terms Undefined

                 EPA has not defined key terms needed to establish measures for the goals
                 outlined in the Strategy. Specifically, EPA has not defined or quantified the term
                 “substantial reduction” for Goal No. 2 of the Strategy. The CAA and EPA’s
                 Strategy specify a substantial reduction in public health risks for effects other than
                 cancer, but EPA has not defined substantial. The Strategy states that EPA
                 intended to use information from its initial noncancer risk assessment to develop a
                 more complete and quantitative goal for a substantial reduction in noncancer risk.
                 As of August 2009, EPA had conducted three noncancer risk assessments as part
                 of its three NATA assessments, but had still not defined what it means to obtain a
                 substantial reduction in noncancer risk.

                 The Strategy also includes the goal of addressing disproportionate impacts of air
                 toxics hazards across urban areas such as geographic “hot spots,” highly exposed
                 population subgroups, and predominately minority and low-income communities.
                 As of August 2009, EPA had not (1) defined geographic hot spots, (2) defined
                 what constitutes disproportionate impacts, (3) systemically identified areas
                 subject to disproportionate impacts, or (4) decided how to address these areas.
                 Based on the results of EPA’s 2002 NATA, many urban areas are likely still
                 experiencing excessive risks from air toxics. Specifically, EPA estimates that in
                 2002, about 2 million Americans lived in areas with excess lifetime cancer risks
                 from exposure to air toxics greater than 1 in 10,000. Cancer risks in excess of 1
                 in 10,000 are generally considered unacceptable by EPA.

11
  A point-specific or “model-ready” inventory records the latitude and longitude of stationary sources of emissions.
The exact locations of the emissions sources are needed as inputs for models that estimate ambient air
concentrations resulting from these emissions.


                                                         15

                                                                                  10-P-0154




         The fact that these key terms remain undefined after 10 years suggests a lack of
         attention to implementing the Strategy.

Conclusions
         Since 1990, EPA has issued over 100 rules to address air toxics emissions, and
         data indicate that air toxics emissions have decreased. However, public health
         risks from exposures to air toxics remain a concern, particularly in urban areas
         that can experience concentrated emissions of air toxics. EPA developed its
         Integrated Urban Air Toxics Strategy to carry out the 1990 CAA Amendments
         more than 10 years ago; yet key actions called for by the CAA and outlined in
         EPA’s Strategy remain unimplemented. Given the length of time since the
         Strategy was developed and the problems EPA has encountered in implementing
         the Strategy, EPA should reassess and update its approach to addressing urban air
         toxics. The absence of an effective EPA strategy adversely affects the ability of
         other entities to address local conditions. As a result, many communities may
         continue to experience elevated health risks from exposure to air toxics.

Recommendations
         We recommend that the Assistant Administrator for Air and Radiation:

         2-1	   Develop and submit the required second Urban Air Toxics Report to
                Congress by the end of FY 2010. This report should:

                    a.	 Disclose the current status and progress made in meeting Section
                        112(k) of the CAA.

                    b.	 Identify the urban areas that continue to experience high or
                        unacceptable health risks from cancer and noncancer effects, and
                        how EPA plans to reduce risks in these areas.

                    c.	 Address the major factors that have hindered implementation of
                        the Integrated Urban Air Toxics Strategy, and how EPA plans to
                        address these factors.

                    d.	 Provide details on how the Agency intends to meet the CAA
                        Section 112(k) requirement that at least 10 percent of Section 112
                        funds to go to State or local agencies to support strategies to
                        address air toxics emissions from area sources.

                    e.	 Disclose air toxics requirements that the Agency is unable to meet
                        through its current authorities.




                                         16

                                                                                    10-P-0154 



         2-2 	   Determine how the Agency will measure progress in meeting the goals of
                 the Strategy. If the Assistant Administrator determines that the
                 development and maintenance of a 1990 or similar baseline is not cost
                 effective, EPA should develop and inform Congress of the Agency’s
                 alternative measures for assessing its progress in meeting the intent of the
                 statutory goals.

Agency Comments and OIG Evaluation
         OAR generally agreed with our findings and conclusions in its May 11, 2010,
         written response, with some exceptions. OAR partially agreed with the report’s
         recommendations.

         Regarding Recommendation 2-1, OAR agreed to include a discussion of the
         specific items listed in the statute in its second report to Congress, but did not
         agree to include a discussion of the additional issues we recommended. We
         believe EPA should include a discussion of these topics as listed in our
         recommendation (a list of urban areas that continue to experience high or
         unacceptable levels of risk, how EPA plans to reduce risks in those areas, the
         factors that have hindered implementation of the Strategy, and how EPA plans to
         address those factors) in its second report to Congress, because we believe these
         issues are contributing factors to delayed implementation of the statute, and they
         would more fully inform Congress of the status of the program.

         Regarding Recommendation 2-2, OAR agreed to determine how it would measure
         progress in meeting the goals of the Strategy. However, OAR did not agree to
         inform Congress of this plan if it involves measuring progress against an
         alternative to a 1990 or similar baseline. The 1990 CAA Amendments stated that
         EPA should reduce ambient concentrations in large urban areas to levels
         substantially below those currently experienced (i.e., 1990). Accordingly, we
         believe Congress should be informed if the Agency’s measurement system does
         not use a baseline reflecting conditions experienced at the time the CAA
         Amendments were passed. We revised our recommendation by replacing the
         phrase “pre-CAA baseline” with “1990 or similar baseline” to clarify the intent of
         our recommendation.

         At our June 17, 2010, exit conference, the Agency said it would reassess its
         approach to the recommendations in preparing its corrective action plan in
         response to the final report. We consider the recommendations unresolved. They
         will remain open in our tracking system pending our receipt and analysis of the
         Agency’s 90-day corrective action plan. See Appendices C and D for the
         Agency’s response to our draft report and our more detailed evaluation of that
         response.




                                          17

                                                                                                                                        10-P-0154



                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                              POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed To
    No.      No.                         Subject                         Status1        Action Official             Date      Amount      Amount

    2-1      16     Develop and submit the required second Urban Air        U      Assistant Administrator for
                    Toxics Report to Congress by the end of FY 2010.                   Air and Radiation
                    This report should:
                      a.     Disclose the current status and progress
                             made in meeting Section 112(k) of the
                             CAA.
                      b.     Identify the urban areas that continue to
                             experience high or unacceptable health
                             risks from cancer and noncancer effects,
                             and how EPA plans to reduce risks in
                             these areas.
                      c.     Address the major factors that have
                             hindered implementation of the Integrated
                             Urban Air Toxics Strategy, and how EPA
                             plans to address these factors.
                      d.     Provide details on how the Agency intends
                             to meet the CAA Section 112(k)
                             requirement that at least 10 percent of
                             Section 112 funds to go to State or local
                             agencies to support strategies to address
                             air toxics emissions from area sources.
                      e.    Disclose air toxics requirements that the
                            Agency is unable to meet through its
                            current authorities.

    2-2      17     Determine how the Agency will measure progress          U      Assistant Administrator for
                    in meeting the goals of the Strategy. If the                       Air and Radiation
                    Assistant Administrator determines that the
                    development and maintenance of a 1990 or similar
                    baseline is not cost effective, EPA should develop
                    and inform Congress of the Agency’s alternative
                    measures for assessing its progress in meeting the
                    intent of the statutory goals.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                18

                                                                                                        10-P-0154


                                                                                                   Appendix A

             EPA’s Estimates of Risks from Exposure to Air Toxics
In its latest NATA, EPA estimated that nearly all of the 285 million people in the United States
(based on the 2000 census) had an increased cancer risk of greater than 10 in 1 million from
exposure to air toxics.12 The average cancer risk for 2002 was 36 in 1 million. Therefore, on
average, approximately 1 in every 28,000 people could develop cancer as a result of breathing air
toxics from outdoor sources with a lifetime of exposure to 2002 emission levels. Further,
2 million people had an increased cancer risk of greater than 100 in 1 million. Of the 86 air
toxics showing potential cancer risks, benzene was the most significant, contributing to about 30
percent of the overall average risk. Another large contributor to the overall average cancer risk
was carbon tetrachloride, which accounted for about 20 percent of the cancer risk. Figure A-1
displays the estimated county-level carcinogenic risk for the United States in 2002. Since the
figure is based on countywide averages, the public health risks in some neighborhoods may be
higher or lower than depicted in the figure.

Figure A-1: Summary Risk Map for U.S. Carcinogenic Risk at the County Level, 2002




Source: EPA Summary of Results for the 2002 NATA.


12
  NATA does not include diesel exhaust emissions in its cancer risk assessments because of a lack of sufficient data
for EPA to set a unit risk estimate for diesel exhaust.


                                                        19

                                                                                                             10-P-0154 



EPA also estimated the number of people with the potential to experience adverse noncancer
neurological and respiratory health effects, as represented by a hazard index greater than 1.0. A
hazard index at or below 1.0 will likely not result in adverse noncancer health effects over a
lifetime of exposure, and a hazard index greater than 1.0 can be best described as indicating that
a potential may exist for adverse health effects.13

Based on the 2002 NATA, the majority of the United States was below a hazard index of 1.0 for
neurological effects. However, the majority of the U.S. population experienced a hazard index
above 1.0 for respiratory effects. Of the 43 air toxics showing the potential for respiratory
effects, acrolein was the most significant, contributing almost 90 percent of the nationwide
average noncancer hazard. Sources of acrolein include tobacco smoke, forest fires, and the
burning of fuels such as gasoline and oil. Figure A-2 displays the county-level respiratory
hazard index in the United States for 2002. Since the figure is based on countywide averages,
the hazard index in some neighborhoods may be higher or lower than depicted in the figure.


Figure A-2: Summary Risk Map for U.S. Respiratory Noncancer Risk at the County Level, 2002




Source: EPA Summary of Results for the 2002 NATA.



13
  A hazard index greater than 1.0 does not necessarily suggest an increased likelihood of adverse effects.
Additionally, the hazard index cannot be translated to a probability that adverse effects will occur, and is not likely
to be proportional to risk.


                                                           20

                                                                                       10-P-0154 





Sources of the Risks from Air Toxics

Based on the 2002 NATA results, background concentrations accounted for about half (46
percent) of the overall U.S. average cancer risk. The background concentrations are composed
of air toxics for which there are currently no known emission sources but that may be detected in
the ambient air by monitors. These background concentrations can result from the transport of
air toxics from other areas, unidentified emission sources, and natural emission sources.

EPA estimated that mobile sources (i.e., on-road and non-road sources) and area sources
accounted for about 30 percent and 18 percent, respectively, of the overall U.S. average cancer
risk. The remaining 6 percent of the estimated risk was from major sources. Figure A-3 shows
the percentage contribution from each sector to the overall estimated cancer risk in the United
States.

Figure A-3: Percentage Cancer Risk Contribution by Source Sector, 2002

                                 6%


                                                     18%


                                                                 Major
  46%                                                            Area
                                                                 On-road
                                                                 Non-road
                                                                 Background



                                                     24%


                           6%

 Source: OIG figure based on 2002 NATA data.


For noncancer adverse health effects, the 2002 NATA results show that mobile sources (i.e., on-
road and non-road sources) were the most significant source for potential respiratory impacts,
contributing about 78 percent of the overall nationwide average respiratory noncancer hazard
index. Area sources accounted for about 18 percent of the overall U.S. average respiratory
noncancer hazard index. Figure A-4 shows the percentage contribution from each source sector
to the overall U.S. estimated hazard index for respiratory noncancer effects.




                                               21

                                                                                      10-P-0154



Figure A-4: Percentage Respiratory Hazard Index Contribution by Source Sector, 2002

                      4%       1%

                                              17%
      16%


                                                                  Major
                                                                  Area
                                                                  On-road
                                                                  Non-road
                                                                  Background




                           62%

Source: OIG figure based on 2002 NATA data.




                                               22

                                                                                  10-P-0154


                                                                              Appendix B

             Prior GAO and EPA OIG Audit Reports

We reviewed the following GAO and EPA OIG reports related to EPA’s air toxics program:

      GAO
        •	 Air Pollution: EPA’s Strategy and Resources May be Inadequate to Control Air
           Toxics. GAO/RCED-91-143, June 26, 1991.
        •	 Air Pollution: Progress and Problems in Implementing Selected Aspects of the
           Clean Air Act Amendments of 1990. GAO/T-RCED-94-68, October 29, 1993.
        •	 Air Pollution: Reductions in EPA’s 1994 Air Quality Program’s Budget.
           GAO/RCED-95-31BR, November 29, 1994.
        •	 Air Pollution: Status of Implementation and Issues of the Clean Air Act
           Amendments of 1990. GAO/RCED-00-72, April 17, 2000.
        •	 Clean Air Act: EPA Has Completed Most of the Actions Required by the 1990
           Amendments, but Many Were Completed Late. GAO-05-613, May 27, 2005.
        •	 Clean Air Act: EPA Should Improve the Management of Its Air Toxics Program.
           GAO-06-669, June 23, 2006.

      EPA OIG

          •	 Clean Air Design Evaluation Results. Report No. 2002-M-000013, April 23,
             2002.
          •	 EPA’s Methods for Calculating Air Toxics Emissions for Reporting Results Needs
             Improvement. Report No. 2004-P-00012, March 31, 2004.
          •	 Progress Made in Monitoring Ambient Air Toxics, But Further Improvements
             Can Increase Effectiveness. Report No. 2005-P-00008, March 2, 2005.
          •	 Improvements in Air Toxics Emissions Data Needed to Conduct Residual Risk
             Assessments. Report No. 08-P-0020, October 31, 2007.




                                            23

                                                                                        10-P-0154


                                                                                    Appendix C

                                Agency Comments
                                          May 11, 2010

MEMORANDUM

SUBJECT:	 Response to Draft Evaluation Report: “Key Activities in EPA’s Integrated
          Urban Air Toxics Strategy Remain Unimplemented,” Project No.
          OPE FY09-0008

FROM:          	Gina McCarthy
               Assistant Administrator

TO: 	          Wade T. Najjum
               Assistant Inspector General for Program Evaluation

       This is in response to your March 30, 2010, draft evaluation report titled, “Key Activities
in EPA’s Integrated Urban Air Toxics Strategy Remain Unimplemented.” Thank you for the
opportunity to review the report and provide comment. As noted in the report, you assessed how
EPA tracks progress with three goals of the Urban Air Toxics Strategy (the Strategy). These
goals are:

        •	 Attaining a 75 percent reduction in cancer incidence attributable to exposure to
           hazardous air pollutants (HAP) emitted by large and small stationary sources
           nationwide;
        •	 Attaining a substantial reduction in public health risks (such as birth defects and
           reproduction effects) posed by HAP emissions from small industrial/commercial
           sources known as area sources; and
        •	 Addressing disproportionate impacts from air toxics across urban areas, such as
           geographic “hot spots,” highly exposed population subgroups, and predominately
           minority and low-income communities.

         As you are aware, the Urban Air Toxics Strategy comprises four components: source-
specific and sector-based emission standards; national, regional, and community-based
initiatives; air toxics assessment; and education and outreach. EPA has made significant strides
in reducing emissions of HAP through both its regulatory and non-regulatory actions conducted
under the authority of the Clean Air Act (CAA) Section 112. Despite this progress, we agree
that much remains to be done to ensure healthy, clean air for all Americans, particularly those
living in urban areas where emission sources can be more concentrated and those living in
communities near facilities emitting HAP. Urban areas are impacted by major and area
stationary sources, as well as mobile sources. We are making significant progress in
understanding the contributions these sources make toward our health risk, and we have achieved
noteworthy reductions in emissions of these pollutants since the CAA amendments of 1990.



                                                24

                                                                                         10-P-0154 



Note that throughout this memorandum, we will be using the terms HAP and air toxics
interchangeably.

Overview of Accomplishments, Challenges and Funding Issues

        EPA has made significant strides in reducing air toxics. As highlighted in EPA’s recent
report titled, “Our Nation’s Air,”14 we are making progress at a majority of sites in the U.S. in
reducing concentrations of important air toxics. The ambient monitoring data described in that
report show that the concentrations of some of the HAP of greatest widespread concern to public
health (i.e., 1,3-butadiene, benzene, tetrachloroethylene, and 1,4-dichlorobenzene) are declining
at most monitoring sites. Concentrations of volatile organic compounds (VOCs) such as 1,3-
butadiene, benzene, styrene, xylenes, and toluene decreased by approximately 5 percent or more
per year at more than half of all monitoring sites. Chlorinated VOCs such as tetrachloroethylene,
dichloromethane, and methyl chloroform decreased at more than half of all monitoring sites
between 2000 and 2005 (the most recent years of ambient air quality data with which to make
such assessments).

        As noted in the March 30, 2010, Draft Evaluation Report titled, “Key Activities in EPA’s
Integrated Urban Air Toxics Strategy Remain Unimplemented” (the draft report), EPA has
issued 96 maximum achievable control technology (MACT) standards covering all the 174 major
source categories originally listed in 1992, as required by the CAA. We have also issued final
area source standards for all but three of the source categories that are necessary to meet the 90
percent requirement in section 112(c)(3). Recently, on April 29, 2010, the Administrator signed
a proposed rule covering two of the listed area source categories (i.e., Industrial Boilers and
Commercial/Institutional Boilers). Also, on April 29, 2010, the Administrator signed proposed
standards for Industrial, Commercial, and Institutional Boilers located at major sources (Boiler
MACT rule) and Commercial, Institutional and Solid Waste Incineration sources (CISWI rule).15
We are under a court-ordered deadline for the Administrator to sign final emission standards for
these categories by December 16, 2010. Further, we intend to issue final emission standards for
Sewage Sludge Incinerators by December 16, 2010. At that point, measured from the 1990
baseline inventory, we will have established standards for the sources that account for at least 90
percent of the emissions of the urban air toxic pollutants. We also intend to complete emission
standards for those sources that account for at least 90 percent of the six bio-accumulative toxic
pollutants identified in Section 112(c)(6) by December 16, 2010. We project that over two
million fewer tons of HAP will be emitted annually than would have occurred in the absence of
these major and area stationary source rules.

        EPA has also issued regulations that are achieving dramatic reductions in mobile source
air toxics (MSATs) from highway vehicles as well as nonroad engines and equipment. We
estimate that these rules will reduce emissions of gaseous air toxics from highway mobile
sources by about 65 percent between 1999 and 2030, despite large increases in vehicle miles
traveled. Similarly, we estimate that such emissions from nonroad equipment will be reduced by
about 60 percent between 1999 and 2030. By 2030, we expect to see on-highway diesel


14
     http://www.epa.gov/airtrends/2010/
15
     http://www.epa.gov/airquality/combustion/actions.html


                                                         25

                                                                                        10-P-0154 



particulate matter (PM) emission reductions of over 90 percent from 2001 levels (and over 80
percent reductions for diesel PM from nonroad sources).

        These reductions in MSATs result from a series of standards that reduce hydrocarbons
from gasoline engines and vehicles, and PM from diesel engines and vehicles. EPA’s rule
specifically targeted at MSATs was published in 2007 (“Control of Hazardous Air Pollutants
from Mobile Sources,” or “MSAT2”). That rule has three components: (1) a standard lowering
the benzene content of gasoline (beginning in 2011); (2) a standard reducing exhaust emissions
from passenger vehicles operating at cold temperatures (under 75 degrees), beginning in 2010;
and (3) a standard reducing emissions that evaporate from, and permeate through, portable fuel
containers (beginning in 2009). In addition, other regulations that reduce mobile source air
toxics include the Tier 2/low-sulfur gasoline standards for light-duty cars and trucks; heavy-duty
engine and vehicle standards (including requirements for ultra-low sulfur diesel); and emission
standards for nonroad diesel engines, small gasoline engines, recreational marine engines,
locomotives, and marine vessels. All these standards have been issued since 2000.

       In addition to these national emissions standards that reduce MSAT emissions from new
vehicles and engines, EPA also assists States, communities and citizens in identifying and
implementing voluntary programs that reduce emissions from the existing fleet. The National
Clean Diesel Campaign advances strategies, such as retrofits, to reduce diesel emissions from
school buses, truck fleets, ports, and construction sites. EPA is administering $120 million in
EPA FY’09 and FY’10 appropriations, and the American Recovery and Reinvestment Act of
2009 provided $300 million in new funding for national and state programs to support the
implementation of verified and certified diesel emission reduction technologies.

         The MACT standards are our most powerful regulatory tools for reducing HAP from
stationary sources. Section 112 of the CAA establishes an ambitious agenda for HAP reduction.
EPA must review all MACT and generally available control technology (GACT) standards every
eight years pursuant to Section 112(d)(6), and revise those standards as necessary considering
developments in practices, processes, and control technologies. We must conduct risk
assessments pursuant to Section 112(f)(2) within 8 years of the date of issuance of a MACT
standard and determine whether the MACT standard appropriately protects human health with an
ample margin of safety. Over the past few years, some MACT rules have been found deficient
by the courts, necessitating revisions. When these rules are revised to comply with the court
decisions and statutory requirements, we expect them to yield significant additional reductions in
emissions, with attendant improvements in public health. It will take time and resources to
reissue these rules. EPA has not always been able to keep up with the schedules established in
the law, resulting in deadline lawsuits that have often served to set our agenda. Between 2010
and 2012, the office responsible for carrying out the Strategy will have more than 100 regulatory
actions at some stage of development, the vast majority of which are either court-ordered or
mandated by law.

       Despite steady progress, we agree there is more to be done. Unfortunately, limited
resources over the past eight years have impaired our ability to fully implement these programs.
For example, air toxics support has been cut over 70 percent since FY 2001. For the first time in




                                                26

                                                                                              10-P-0154 



almost a decade, this year EPA has shifted funds from other programs to help meet regulatory
deadlines.

Response to Specific Comments that CAA Actions Remain Unimplemented

      We acknowledge your concern about certain CAA-required air toxics activities remaining
unimplemented. Listed below are the items which you identified along with our response.

              a) Promulgating air toxics standards for area source categories by November
                 15, 2000.

       As noted above, we have a court-ordered deadline to complete by December 16, 2010,
emission standards for those area source categories that are necessary to meet the 90 percent
requirement in section 112(c)(3). We have completed standards for all of the area source
categories, except three. Specifically, we will be issuing emission standards for the boilers and
CISWI rules described above and a rule for sewage sludge incinerators by December 16, 2010.
We anticipate that these rules, along with the air toxics rule for boilers located at major sources
which will be promulgated on the same schedule, will result in significant reductions in
emissions of both HAP and criteria pollutants in urban areas.

              b) Awarding at least 10 percent of funds available under Section 112 to state or
                 local agencies to support strategies to address air toxics emissions from area
                 sources.

        Funds for urban air toxics area-wide strategies have never been appropriated to the
Agency by Congress under Section 112 of the Act. Congress has appropriated funds to the
Agency under Sections 103 and 105, and the Agency has issued annual program guidance for
numerous years encouraging the use of a portion of these funds by recipients to support such
activity. However, neither of these authorities carries a 10 percent set-aside requirement. In
addition, the Agency has used other avenues to target funds for priority air toxics needs. For
example, as noted in the draft report, the Community Action for a Renewed Environment
(CARE) program has provided 79 competitive grants, creating broad-based partnerships to
implement local solutions to reduce releases of toxic pollutants and minimize public exposure.
As outlined in the 2009 National Academy of Public Administration report titled, “Putting
Community First: A Promising Approach to Federal Collaboration for Environmental
Improvement,”16 many of these grants have gone to communities in urban areas and many have
identified air toxics issues, such as diesel emissions, as among the highest priorities. Prior to
implementation of CARE in 2005, OAR awarded grants through the Community Air Risk
Reduction Initiative (CARI), with a goal towards enabling communities to better understand
local air toxics issues. Ninety grants and other ongoing projects are currently underway and
being tracked in a community air toxics database.17

      The Agency is nearing completion of a monitoring project at 65 schools nationwide,
many of which are located in urban areas. This program has been designed to evaluate air toxics

16
     http://www.napawash.org/pc_management_studies/CARE/5-21-09_Final_Evaluation_Report.pdf
17
     http://yosemite.epa.gov/oar/CommunityAssessment.nsf/Welcome?OpenForm


                                                     27

                                                                                            10-P-0154


risks to children and the communities in which they live. OAR has continued to enhance its air
toxic monitoring network to look at both national and local issues via the National Air Toxic
Trend Sites (NATTS) and the community-scale air toxic monitoring efforts, respectively.

               c) Submitting a second report to Congress on actions taken to reduce risks
                  posed by urban air toxics from area sources.

       Please refer to our response to the recommendations of the draft report on page 9.

Response to Specific Actions Outlined in EPA’s Strategy but not implemented (per the
Draft Report)

         The following activities identified in your draft report are not required by the statute, but
were initially included either in the Strategy or in a work plan EPA issued in 2001 to support
state, tribal and local air toxics programs. Our work over this past decade has further refined our
thinking about air toxics and ways to reduce public exposure to HAP. As a result, we are now in
a better position to re-evaluate the recommendations made in the Strategy and in the September
2001 work plan.

               a) Establishing a minimum risk-based air toxics program

        Through our experience addressing national air toxics issues over the last 10 years, we
believe that establishing a “minimum risk-based air toxics program” may not be the only
approach to reducing risks nationwide in urban areas. There are significant complexities
associated with developing a minimum risk-based program. Due to the fact that air toxics issues
can vary significantly from state to state, as well as community to community, the premise of a
“one size fits all” program (i.e., a program that sets risk-based health limits nationwide) may not
be the best national approach to reducing risk posed by emissions from numerous and
geographically diverse small stationary and mobile sources. As such, we plan to re-examine this
approach in conjunction with our development of the 2nd Report to Congress.

        While we have not developed a minimum risk-based air toxics program for states, tribes
or local agencies, we have helped these agencies by encouraging and supporting their area-wide
air toxics strategies. EPA has developed technical support materials to provide guidance and
recommendations for conducting risk assessments that can inform the development of such
strategies. For example, EPA has developed the Air Toxics Risk Assessment Reference Library,
a three volume compendium of state of the art techniques for conducting all types of risk
assessments for sources of HAP. In addition, we developed a hands-on train-the-trainer course
and delivered it at each of the ten EPA regional offices during 2004 and 2005. The four-day
course addressed the use of risk assessment approaches in the development of emission reduction
strategies for state, local and tribal air pollution agency personnel. As a result of these technical
support and outreach activities, state, tribal and local air pollution agencies are better equipped to
use state of the art risk assessment methodologies and develop their own risk-based air pollution
control strategies. Many have used risk assessments to inform the development of regulatory
and non-regulatory strategies to reduce the health risks associated with HAP.




                                                  28

                                                                                         10-P-0154


         We recognize that after implementation of our national rules, local air toxics issues may
still remain. To help state, tribal and local programs address these local needs, EPA has
developed and continues to refine and improve tools such as the National Air Toxics Assessment
(NATA), a national assessment of emissions, risk, and exposure to over 100 air toxics. We also
use ambient monitoring to identify national and local sources of air toxics risk. Under the
residual risk program, we are currently evaluating more holistic risks in the decision-making
process by comparing the risks from the specific source category with other local risks, such as
those from all air toxics sources within the facility.

        An example of an innovative approach to assessing urban air toxics includes a multi-
pollutant study completed in Detroit, Michigan, in 2008. This OAR study demonstrated the
feasibility of assessing the potential co-benefits from strategies to reduce emissions of both air
toxics and criteria pollutants simultaneously. The study demonstrated that the “multi-pollutant,
risk-based” approach could: (1) achieve the same or greater reductions of PM2.5 and ozone (O3)
at monitors; (2) improve air quality regionally and across the Detroit urban core for multiple
pollutants, including HAP; (3) produce approximately two times greater monetized benefits for
PM2.5 and O3; (4) reduce non-cancer risk; and (5) result in greater net benefits and be more cost
effective. EPA is supporting both a follow-on study similar to the Detroit assessment in another
urban area and pilot efforts by state and local governments to prepare a multi-pollutant Air
Quality Management Plan (AQMP) to explore the policy issues of implementing this approach.

               b) Measuring and tracking progress in meeting the Strategy’s goals

         While a direct measurement of both cancer and non-cancer health effects and associated
risks is not feasible for purposes of establishing a baseline, EPA plans to use other tools as a
surrogate to measure progress. Although NATA is the Agency’s most complete assessment of
the nation’s overall cancer and non-cancer air toxics risks, the ability to generate a NATA-like
analysis for a pre-1990 “snapshot” is not technically feasible. The site-specific data, such as
stack parameters, that are required by the NATA modeling system are not available or were
simply not collected in 1990. In lieu of making the many assumptions necessary to complete
such an inventory, EPA believes that using other available data as surrogates to measure the
change in risk to the public, such as “toxicity-weighted” emission inventory measures, is
adequate. EPA is currently using such measures to track program progress under the Office of
Management and Budget’s Program Assessment Review Tool (PART) annual reporting
requirements. EPA believes that such a measure can also serve as a surrogate to measure
progress towards the CAA’s goal of attaining a 75 percent reduction in the incidence of cancer
attributable to exposure to HAP emitted from stationary sources nationwide.

         EPA works with states and local governments to continually update and refine NATA.
NATA provides comprehensive information on pollutants and emission sources of HAP in every
urban area of the country. The next iteration of NATA will be released in summer 2010. NATA
has become an important tool to assist the Agency in developing environmental justice profiles
and solutions and to identify hot spots or anomalous high values. Compiling and publishing the
NATA has encouraged companies to be more aware of their toxics emissions, which is a key
initial step to reduction activities.




                                                29

                                                                                          10-P-0154 



        EPA also increased the effort to better evaluate and understand the current state of urban
air toxics. Specifically in 2009, as noted on page 4 of this response, EPA initiated a national air
toxics monitoring initiative focusing on 65 schools, many of which are located in cities. This
effort was designed to go beyond the NATA analysis and to better understand and characterize
the exposure of school children and their communities to air toxics.

        In 2011, EPA plans to award as much as $4.9 million in community-scale air toxics
monitoring grants thereby providing the opportunity to measure air toxics in communities,
including areas around schools, where appropriate. These community grants will focus on many
of the urban air toxics issues that the strategy was developed to address. We intend to continue
to support the community-scale air toxics monitoring project in the future. Between 2004 and
2008, we awarded grants, which ranged from $50,000 to $750,000, to 53 communities. Funded
projects were designed to identify and profile air toxics sources, develop and assess emerging
measurement methods, characterize the degree and extent of local air toxics problems, and track
progress of air toxics reduction activities.

        EPA also operates 27 National Air Toxic Trend Sites (NATTS), 20 of which are located
in urban areas. These sites are expected to provide trends data (when the network has five years
of representative and acceptable data) to track progress in reducing ambient concentrations. This
network represents a $5 million annual commitment to better understand our progress in
reducing air toxics in both urban and rural areas.

        EPA continues to invest in improvements to emissions inventories for air toxics within
the current statutory and regulatory framework. For the 2008 National Emissions Inventory
(NEI), EPA’s new Emissions Inventory System will store and analyze emissions data for criteria
pollutants and HAP. This system will allow for an improved NEI. In an effort to improve the
amount and quality of HAP data in 2009, we spent half of our budget for emissions inventory
development on HAP emissions. Among other things, we improved coordination of information
collection activities associated with rule development, such as the recent boilers/CISWI
information collection request, with our emissions inventory “build out.”

        We have initiated an emissions inventory improvement partnership with the South Coast
Air Quality Management District and the California Air Resources Board to use the lessons
learned from the 2002 and 2005 NATA emissions inventories to improve reporting of air toxics
for both the 2008 NEI and NATA.

        One factor that has affected EPA’s ability to implement the strategy in the past is the
uneven quality of the air toxics emissions inventory. Although data quality has greatly
improved over the years since its inception, continued improvements are needed and are
underway. One way that EPA is addressing this issue is through its stationary source rules for
major and area sources. As we reopen these rules, either to reissue them due to a court decision
or to amend them as a result of a risk or technology review, we intend to add provisions that
facilities submit required emissions and performance data to EPA electronically.




                                                 30

                                                                                         10-P-0154




               c) Defining the term “substantial reduction” to track progress in reducing
                  non-cancer health impacts

        The EPA air toxics program targets both cancer and non-cancer health effects. For
example, the residual risk program targets, among other things, facilities with a non-cancer
hazard index greater than one as a potential candidate for further evaluation and potential
controls. As noted previously, directly measuring risks reductions for purposes of developing a
pre-1990 baseline for the urban strategy is not feasible. As a surrogate, EPA plans to use toxicity
weighted inventories to track progress in risk reductions for both cancer and non-cancer health
effects. Despite the fact that we have not defined the term “substantial reduction,” based on
estimates from our latest available emissions inventory, emissions associated with carcinogens
have been reduced by about 36 percent, while reductions from non-cancer emissions have gone
down by over 50 percent from pre-1990 levels.

        Also, while EPA has not issued formal definitions of terms such as “geographic hot
spots” and “disproportionate impacts” as noted in the report, we continue to identify the
locations of highest potential risks with tools such as NATA. These lists are frequently shared
with our state, tribal and local partners to validate, and, where appropriate, take actions on
reducing these risks. EPA has developed tools to compare risks across census tracts and include
demographic, educational and monetary status. As directed by the Administrator, these tools
will inform decision-making processes in future rulemaking efforts.

Education and Outreach

       Although not the focus of the draft evaluation report, education and outreach is one of the
four components of the national strategy. As such, we wanted to highlight the following
accomplishments:

       •	 EPA’s Integrated Urban Air Toxics Strategy has been featured at the OAR’s annual
          Air Toxics Training Workshops for the EPA regional staff, as well as state, tribal, and
          local agency staff. OAR has also held meetings with state and local agencies,
          including a Federal Advisory Committee Act panel (on state, local, and tribal
          program structure), to determine the best way to support their air toxics programs.
          OAR worked with environmental justice communities and others to obtain feedback
          on implementation.

       •	 In coordination with the Office of Enforcement and Compliance Assurance (OECA),
          OAR is assisting in the development of guidance that: (1) prioritizes the area source
          rules to help delegated agencies and EPA regions focus their limited resources on the
          most significant standards to achieve emission reductions to the greatest extent
          possible; (2) identifies recommended approaches to ensuring compliance with
          individual rules; and (3) provides delegated agencies flexibility to address regionally
          significant issues. In addition, the guidance addresses other implementation issues
          such as data reporting.




                                                31

                                                                                          10-P-0154 



        •	 OAR continues to provide training opportunities for state, tribal, and local air
           agencies through webinars and webcasts on various area source rules and toxics
           projects, such as the chemical manufacturing and paints and allied products area
           source rules. In addition, OAR continues to create implementation tools and outreach
           materials for area source rules. OAR is currently updating classroom materials on
           controlling gaseous emissions, and is reviewing other topics (e.g., area source MACT
           standards).

Response to Recommendations

2-1 	   Develop and submit the required 2nd Urban Air Toxics Report to Congress by the end of
        FY 2010

        EPA has not yet submitted the 2nd Report to Congress identified in CAA Section
        112(k)(5). We have begun working on the report, and currently plan to complete it in late
        summer 2011. Therefore, EPA agrees with recommendation 2-1, but only insofar as it
        calls for the Agency to complete the Report to Congress identified in CAA Section
        112(k)(5). We will prepare the report consistent with the requirements of Section
        112(k)(5).

2-2 	   Determine how the Agency will measure progress in meeting the goals of the Strategy.
        If the Assistant Administrator determines that the development and maintenance of a pre-
        CAA baseline is not cost effective, EPA should develop and inform Congress of the
        Agency’s alternative measures for assessing its progress in meeting the intent of the
        statutory goals.

        EPA agrees with recommendation 2-2, insofar as the recommendation calls for EPA
        to determine how to measure progress in meeting the goals of the Strategy.

Conclusion and Path Forward

        Recently, Administrator Jackson announced an Agency priority to reduce emissions of
HAP from stationary sources and to focus on improving health and environmental quality in
communities. In addressing sources of air toxics, EPA can directly effect change in
communities and urban areas. In consideration of these concerns and EPA’s priorities, OAR is
developing a strategy for addressing HAP that will be carried out in cooperation with other EPA
Offices; other federal, state and local environmental and health agencies; and other stakeholders,
to reduce exposure to HAP in our communities. OAR is partnering with OECA, whose
priorities for enforcement complement OAR’s priorities for reducing HAP in communities and
urban areas through compliance assistance and enforcement.

         Other offices within EPA, other federal agencies, state, tribal and local organizations are
also focused on improving health in vulnerable communities and for vulnerable sub-populations.
OAR will continue to involve others as we implement this strategy, will seek partnerships
wherever possible, and will continue to seek technical expertise where it will enhance our mutual
efforts.



                                                32

                                                                                        10-P-0154 





       As part of the strategy under development, OAR intends to take into consideration the
natural overlap of certain HAP and criteria pollutant rules and coordinate the development and
implementation of major and area source HAP rules and new source performance standards
where it makes sense. By coordinating MACT development for specific source categories with
other rulemaking efforts, EPA can substantially reduce the cost of developing standards while
providing more certainty and lower cost for industry and small businesses. At the same time,
we can simplify implementation for states, tribes and local agencies, and enhance cost-effective
approaches. Focusing on aspects of industrial emissions not fully addressed by previous
regulatory actions, such as startup/shutdown/malfunction emissions, will also provide
substantial health benefits at the local level in urban communities. Moreover, for the first time
in almost a decade, OAR has shifted funds from other programs into the air toxics program to
help meet some of its statutory mandates. We believe that, together, all of these actions will
help address air toxics in urban areas throughout the country.

       Thank you again for the opportunity to comment on the draft evaluation report. If you
have any questions regarding my comments, please contact me or Steve Page, Director of OAR’s
Office of Air Quality Planning and Standards, at (919) 541-5616.


cc: 	   Beth Craig, OAR
        Elizabeth Cotsworth, OAR
        Steve Page, OAR/OAQPS
        Gregory Green, OAR/OAQPS/OID
        Peter Tsirigotis, OAR/OAQPS/SPPD
        Lydia Wegman, OAR/OAQPS/HEID
        Richard Wayland, OAR/OAQPS/AQAD
        Peter South, OAR/OAQPS
        Kay Holt, OAR/OAQPS
        Michael Boucher, OAR/OAQPS
        Margo Oge, OAR/OTAQ
        Kathryn Sargeant, OAR/OTAQ
        David LaRoche OAR
        Wendy Blake, OGC
        Rick Beusse, OIG
        Jim Hatfield, OIG




                                               33

                                                                               10-P-0154


                                                                           Appendix D

       OIG Evaluation of Agency Comments
The Agency’s overall response states, in part, “EPA has made significant strides in
reducing emissions of HAP through both its regulatory and non-regulatory actions
conducted under the authority of the Clean Air Act (CAA) Section 112. Despite this
progress, we agree that much remains to be done to ensure healthy, clean air for all
Americans, particularly those living in urban areas where emission sources can be more
concentrated and those living in communities near facilities emitting HAP.” We agree
that much remains to be done to ensure clean air for all Americans, particularly those
living in urban areas. The remainder of the Agency’s response is divided into six
sections. We address each of those six sections below.

1. Response to Agency’s Overview of Accomplishments, Challenges, and Funding
Issues

The Agency comments list several of EPA’s accomplishments in reducing air toxics
emissions. In particular, OAR lists the issuance of numerous MACT standards, area
source (GACT) standards, residual risk standards, and mobile source air toxics
regulations. The Agency also noted that ambient monitoring data show decreases in
ambient air toxics concentrations. However, the Agency’s comments acknowledge that
despite progress, more should be done. The Agency cites a 70 percent cut in funding
since FY 2001 as impairing its ability to fully implement its air toxics program.

We acknowledge that EPA has completed many specific actions to implement its overall
air toxics program. However, the objective of our review was to assess the Agency’s
tracking of its progress in meeting the urban air toxics actions mandated by the 1990
CAA Amendments and the specific goals outlined in the CAA-mandated Urban Air
Toxics Strategy. As described in our report, EPA has not tracked its progress in reducing
the public health risk from exposure to urban air toxics, the goal set out by CAA Section
112(k). Further, given the localized nature of air toxics concentrations, a general
decrease in air toxics emissions nationwide does not necessarily mean that air toxics
levels and health risks have been reduced in specific urban areas. Consequently, despite
EPA’s actions, the success of these actions in reducing the public health risks from
exposure to air toxics in urban areas is still unknown.

2. Response to Specific Comments that CAA Actions Remain Unimplemented

The Agency’s response acknowledged that certain CAA-required activities remain
unimplemented. The Agency provided updates and some explanations for these delays.

As required by the 1990 CAA Amendments, EPA was to have promulgated air toxics
emissions standards for all area source categories by November 15, 2000. OAR noted
that the Administrator signed a proposed standard covering two area source categories in



                                       34

                                                                                   10-P-0154 



April 2010. Our report includes the number of finalized – not proposed – rules as of
January 2010, so we did not make this change to the report. In addition, OAR’s
comments state that three area source categories still need final standards, while our
analysis shows that four categories still need standards. These four source categories are
Industrial Boilers; Institutional/Commercial Boilers; Sewage Sludge Incineration; and
Brick and Structural Clay Products. OAQPS told us at our exit conference that Brick and
Structural Clay Products was no longer considered an area source category. If these rules
are finalized by the court-ordered deadline of December 16, 2010, EPA will have
satisfied the 1990 CAA Amendment requirements to promulgate air toxics emissions
standards for all area source categories a little over 10 years after the original deadline.

A second key CAA action not implemented by EPA involves awarding at least 10 percent
of the grant funds available under CAA Section 112 to State or local agencies to fund
innovative strategies for reducing air toxics emissions from area sources. OAR
commented that Congress has never appropriated grant funds to the Agency under CAA
Section 112. Rather, Congress has appropriated grant funds to EPA under CAA Sections
103 and 105 to be awarded to State, local, and other air pollution control agencies to
administer programs that prevent and control air pollution, and to implement national
ambient air quality standards. EPA noted that it has issued annual program guidance
encouraging the use of these funds to support such activities. The Agency also noted that
neither Section 103 nor 105 carries a 10 percent set-aside requirement, and that EPA has
used other avenues, such as the CARE initiative, to target some funds for priority air
toxics needs. We revised the report to clarify that Congress has never specifically
appropriated funds for CAA section 112 grants. Our report already cited EPA’s CARE
program in the Noteworthy Achievements section.

Nonetheless, the intent of CAA Section 112(k) has never been met. Even though
Congress used CAA Sections 103 and 105 to appropriate grant funds to EPA for it to
award to State and local agencies to control both air toxics and criteria pollutants, EPA
could still provide 10 percent of the air toxics-related grant funds to meet the intent of
CAA Section 112. However, EPA is using the manner of the Congressional
appropriation as a reason it has never met the intent of the 1990 CAA Amendments that
10 percent these funds would be used for area sources emission reduction strategies. We
continue to believe EPA can meet the intent of the 1990 CAA Amendments by setting
aside 10 percent of the amount it allocates to air toxics activities for grants to implement
innovative area source reduction strategies.

A third key CAA action that remains unimplemented is the CAA-required second report to
Congress that was due in 2002. Such a report would provide Congress, State and local
agencies, stakeholders, and the public transparency and accountability regarding the status
of the Agency’s actions to address urban air toxics. Additionally, in both its reports to
Congress, EPA was to have specifically identified those urban areas that continue to
experience high risks to public health posed by emissions from area sources. EPA’s July
2000 first report to Congress did not do this. EPA said that the Agency will meet the
requirements of CAA Section 112(k)(5) in its second report to Congress, which it stated it
plans to issue in summer 2011. CAA Section 112(k)(5) requires that EPA report on the



                                         35

                                                                                  10-P-0154


“actions taken under this subsection [CAA 112(k)] and other parts of this Act to reduce the
risk to public health posed by the release of hazardous air pollutants from area sources.
The reports shall also identify specific metropolitan areas that continue to experience high
risks to public health as the result of emissions from area sources.”

3. Response to Specific Actions Outlined in EPA’s Strategy But Not Implemented
(per the Draft Report)

EPA commented that its work over the past decade has further refined its thinking about
air toxics and ways to reduce public exposure to air toxics. As a result, the Agency says
it is in better position to reevaluate the recommendations it made in its 1999 Strategy and
its September 2001 work plan. This section discusses the Agency’s comments on and
our evaluation of three specific actions that are outlined in its Urban Air Toxics Strategy
but that it has not implemented:
   •	 establishing a minimum risk-based air toxics program for S/L/T agencies;
   •	 measuring and tracking progress in meeting the Strategy’s goals; and
   •	 defining the term “substantial reduction” to track progress in reducing noncancer
      health impacts.
First, EPA said that developing a program that sets risk-based health limits nationwide
may not be the best approach to reducing risks in urban areas. The Agency cited the
complexities associated with such an approach and the varying nature of air toxics
problems from State to State as reasons for questioning this approach to reducing air
toxics risks in urban areas. The Agency stated that it plans to reexamine this approach in
conjunction with its development of the second report to Congress. Given the time lapse
since the original Strategy, and the delays in tracking and addressing urban air toxics it
may be prudent for EPA to reexamine the approaches it outlined in its 1999 Strategy and
the associated 2001 work plan. However, EPA has had more than a decade to develop
the risk-based program at the S/L/T level, as discussed in the Strategy and associated
work plan, or to develop an alternative approach in its absence. EPA’s response does not
explain how EPA will help those State and local agencies that have laws preventing them
from implementing environmental regulations stricter than EPA’s regulations. We
believe any revised Strategy should include firm milestones and monitoring strategies to
assure that any new or revised actions or alternative approaches are implemented as
expeditiously as practicable within a reasonable timeframe. Also, absent establishment
of a minimum, federally required risk-based program, EPA should explain how all State
and local agencies will be able to implement programs to adequately address the health
risks from urban air toxics. If EPA only addresses CAA Section 112(k)(5) in its second
report to Congress, as stated in its comments, the results of this reexamination would not
be included in the report.

Second, with regard to measuring the Agency’s progress in implementing the Strategy,
EPA commented that direct measurement of both cancer and noncancer health effects and
associated risks is not feasible for the purpose of establishing a baseline against which to
measure progress. Instead, EPA stated that it believes other available data can be used as
surrogates to measure the change in health risks to the public. The Agency stated that it


                                        36

                                                                                   10-P-0154


believes its current air toxics measure for its annual reporting requirement (i.e., toxicity-
weighted emissions inventory measures) can serve as a surrogate for measuring progress
toward the CAA’s goal of a 75 percent reduction in the incidence of cancer attributable to
exposure from air toxics emitted from stationary sources nationwide. We acknowledge
that direct measurement of cancer and noncancer health effects associated with air toxics
exposure is not feasible, and that surrogate measures are needed. The use of the toxicity-
weighted emissions for measuring progress toward the 75 percent reduction in cancer
incidence goal is an improvement over the use of gross emissions reductions as a
measure, in that it weights the reductions based on their toxicity. However, as EPA
explained when it published its Integrated Urban Air Toxics Strategy in 1999, this
approach lacks the dispersion and exposure modeling steps of an exposure assessment
and therefore cannot provide quantitative estimates of risk. Such quantitative estimates
of risk are needed to assess whether the goals of the Strategy are being met. If EPA
decides to use toxicity-weighted emissions to measure progress with the 75 percent
reduction in cancer goal, we note that EPA's FY2010 target is a 36 percent reduction in
toxicity-weighted emissions (for cancer risk) from 1993, not a 75 percent reduction.

EPA’s response also discussed the Agency’s current and planned activities to gather
additional air toxics measurement data and improve its current measurement efforts, such
as the National Emissions Inventory and NATA. In addition to the Agency’s 20 National
Air Toxics Trend Sites in urban areas, EPA pointed out that it has also initiated air toxics
monitoring at 65 schools, many of which are located in urban areas. Further, in 2011,
EPA plans to award community-scale grants, many of which will focus on urban air
toxics. These efforts follow the 53 community-scale grants EPA issued from 2004 to
2008 that were designed to, among other things, characterize the degree and extent of
local air toxics problems and track progress of air toxics reduction activities. EPA also
plans to improve the quality of its emissions inventory data for air toxics by addressing
data quality issues through its future stationary source rules for major and area sources.
As EPA reopens these rules, it intends to add provisions requiring that facilities submit
emissions and performance data directly to EPA electronically. We believe these are
worthwhile activities. However, EPA should explain how it will use these data to
measure progress with the Strategy’s goals.

Third, EPA acknowledges that it has not defined the terms “substantial reduction,”
“geographic hot spots,” or “disproportionate impacts,” which are key terms included in
Goals No. 2 and No. 3 of the Strategy. Further, EPA does not state that the Agency has
any plans to define them. Undefined, these terms are vague and subject to individual
interpretation, and they contribute to a lack of accountability for the urban air toxics
program. We continue to believe that to measure progress in achieving the Strategy’s
goals, these terms should be defined.

4. Education and Outreach

In this section of its response, the Agency outlined some of its activities to provide
education and outreach to its air toxics program partners and stakeholders. Our report did
not discuss education and outreach; therefore, we have no response to these comments.



                                         37

                                                                                                       10-P-0154 





        5. Response to Recommendations

        In response to Recommendation 2-1, EPA agreed to submit the second report to Congress
        but did not agree to address several specific items we recommended. While these items
        are not specifically outlined in the CAA requirements for reporting to Congress, we
        believe the inclusion of these items is necessary to fully inform Congress of the status of
        the urban air toxics program, and that it is appropriate for the Agency to do so after 20
        years of implementing the 1990 CAA’s urban air toxics provisions.

        In response to Recommendation 2-2, the Agency agreed to determine how it will measure
        progress in meeting the goals of the Strategy, but did not agree to inform Congress of
        these plans if development of a 1990 or similar baseline is not feasible.18 We believe
        informing Congress of the Agency’s plan to measure urban air toxics progress without
        using a 1990 or similar year baseline as a starting point is necessary since the CAA
        Amendments specified that “. . . ambient concentrations characteristic of large urban
        areas should be reduced to levels substantially below those currently experienced.” We
        revised Recommendation 2-2 by replacing the phrase “pre-CAA baseline” with “1990 or
        similar baseline” to clarify the intent of our recommendation.

        At our exit conference the Agency said it would reassess its response to the
        recommendation when preparing its corrective actions plan. We are keeping both
        recommendations open in our tracking systems pending our receipt and analysis of the
        Agency 90-day corrective actions plan in response to this final report.

        6. Conclusion and Path Forward

        The Agency commented that the Administrator recently announced an Agency priority to
        reduce emissions of air toxics from stationary sources and to focus on improving health
        and environmental quality in communities. In light of these priorities, the Agency stated
        that OAR is developing a strategy to reduce exposure to air toxics in our communities
        that will be carried out in cooperation with other EPA offices; other federal, State, and
        local environmental and health agencies; and other stakeholders. OAR is partnering with
        the Office of Enforcement and Compliance Assurance, whose priorities for enforcement
        complement OAR’s priorities for reducing air toxics in communities and urban areas
        through compliance assistance and enforcement. We acknowledge the Agency’s
        renewed efforts to address air toxics health risks. These and other comments in the
        Agency’s response indicate that the Agency is taking a revised and updated approach to
        addressing air toxics. Accordingly, we believe the Agency should formally revise its
        1999 Strategy to reflect its new approach to addressing urban air toxics.




18
  Text originally said “if development of a pre-CAA baseline is not feasible,” which we realized could be
misinterpreted. During our exit meeting, OAQPS said the text was interpreted as a 1990 or similar baseline, as we
had intended. We made this technical correction throughout the final report


                                                        38

                                                                              10-P-0154


                                                                            Appendix E

                                    Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Director, Office of Regional Operations
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Air and Radiation
Acting Inspector General




                                             39

